           Department of Veterans Affairs
           Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-01072-140




      Combined Assessment Program 

            Summary Report 


       Evaluation of Nurse Staffing in 

       Veterans Health Administration 

                 Facilities 

           April–September 2013 





May 12, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                   Telephone: 1-800-488-8244
                  E-Mail: vaoighotline@va.gov
               Web site: www.va.gov/oig/hotline
          Evaluation of Nurse Staffing in Veterans Health Administration Facilities April–September 2013



                                Executive Summary 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections evaluated
nurse staffing in Veterans Health Administration (VHA) facilities. The purpose of the
evaluation was to determine the extent to which VHA facilities implemented the staffing
methodology for nursing personnel and to evaluate nurse staffing on an acute care unit,
a long-term care unit, and a mental health unit.

Inspectors evaluated nurse staffing at 28 facilities during Combined Assessment
Program reviews conducted from April 1 through September 30, 2013.

VHA required that all facilities implement the nurse staffing methodology by
September 30, 2011. During the review period of April 1 through September 30, 2013,
8 of the 28 facilities reviewed had not fully implemented the methodology. This result is
similar to our previous report.

A comparison of the actual staffing with the staffing targets indicated that most facilities
met their targets. Three facilities’ actual staffing for at least one (but not all) of the
reviewed units was significantly below the target, and two facilities’ actual staffing for all
reviewed units was significantly above the target. Both of these results should drive
reassessment and possible adjustment. Potential overstaffing could indicate that
resources could be better used elsewhere. Potential understaffing could indicate that
either actual staffing or workload needs to be adjusted to provide safe care.

We re-emphasize the need for all facilities to fully implement the methodology and
accurately address patient needs with safe and adequate staffing. VHA submitted a
detailed action plan that was still in progress at the time of this report. Therefore, we
will not make repeat recommendations but will continue to review.

Comments
The Under Secretary for Health concurred with the report.                       (See Appendix A,
pages 5–6, for the comments.) No further action is required.




                                                              JOHN D. DAIGH, JR., M.D. 

                                                             Assistant Inspector General for 

                                                                Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                               i
           Evaluation of Nurse Staffing in Veterans Health Administration Facilities April–September 2013



                                             Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections evaluated
nurse staffing in Veterans Health Administration (VHA) facilities. The purpose of the
evaluation was to determine the extent to which VHA facilities implemented the staffing
methodology for nursing personnel and to evaluate nurse staffing on an acute care unit,
a long-term care unit, and a mental health unit.

                                          Background 

VHA facilities are required to apply a nationally standardized methodology process to
determine staffing for VA nursing personnel for all inpatient points of care.1 The
directive required a series of steps to be completed by September 30, 2011. These
steps included:

	 Soliciting input from nursing staff and interdisciplinary partners in determining
   required staffing levels and staff mix in alignment with the needs of all patient care
   areas.
 Developing a unit-based expert panel consisting of nursing staff who work on the
   unit and represent all nursing roles.
 Ensuring the unit-based expert panel:
       o	 Conducts a comparative analysis of staffing needs using measures
           appropriate for the care setting.
       o	 Makes recommendations for the target nursing hours per patient day
           (NHPPD)2 as appropriate for the care setting.
       o Calculates projected and daily staffing requirements using the tools provided.
 Developing a facility expert panel to review unit recommendations for system impact.
 Reviewing the effectiveness of the staffing plans at least annually.

In 2013, the VA OIG published the results of the review it conducted from April through
September 2012.3         In that report, we recommended that all facilities fully
implement the staffing methodology and improve processes to use the available data to
manage and provide safe, cost-effective staffing. This report includes results from
April–September 2013, with different randomly selected days, different facilities, and
more units per facility.

                              Scope and Methodology 

Inspectors evaluated nurse staffing at 28 facilities during Combined Assessment
Program reviews conducted from April 1 through September 30, 2013. These facilities
were a stratified random sample of all VHA facilities and represented a mix of facility

1
  VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
2
  NHPPD refers to the number of direct care hours related to the patient workload.
3
  Combined Assessment Program Summary Report – Evaluation of Nurse Staffing in Veterans Health
Administration Facilities, Report No. 13-01744-187, April 30, 2013.


VA OIG Office of Healthcare Inspections                                                                1
          Evaluation of Nurse Staffing in Veterans Health Administration Facilities April–September 2013


size, affiliation, geographic location, and Veterans Integrated Service Networks. We
reviewed facility policies and training records and conversed with staff. Additionally, we
gathered and analyzed actual staffing data for one acute care unit, one mental health
unit, and one long-term care unit at each facility, as applicable, and generated an
individual Combined Assessment Program report for each facility. For this report, we
analyzed the data collected from the individual facility Combined Assessment Program
reviews.

For the review of actual staffing between October 1, 2012, and March 31, 2013, we first
selected up to 3 units within each of the 20 facilities in our sample that had developed
NHPPD targets. Eight facilities had not fully implemented the methodology. We
selected units based on concerns about safe staffing that employees submitted to the
OIG’s employee survey. If employees did not indicate concerns about staffing on any
particular units, we sampled the units for review randomly from among all acute care,
mental health, and long-term care units in the facility.

For the sampled units at each of the remaining 20 facilities, we compared the actual
staffing with the target NHPPD based on a stratified, randomly selected sample of
52 days. We divided the 182 days between October 1, 2012, and March 31, 2013, into
three strata:

      Holidays (including related weekdays and weekend days)
      Weekdays
      Weekends

We included 9 holidays (and related days) and randomly sampled 12 (out of 48)
weekend days and 31 (out of 125) weekdays for our review.

Based on the sampled actual staffing data, we estimated the percent of VHA facilities
whose actual average staffing levels were at, above, or below their targeted NHPPDs.
For the holidays, we counted the average of the actual staffing level as above the
targeted NHPPD if it was at least 10 percent over the target or as below the target if it
was at least 10 percent lower than the target value. We presented a 95 percent
confidence interval (CI) for the true VHA value (parameter). A CI gives an estimated
range of values (calculated from a given set of sample data) that is likely to include an
unknown parameter. The 95 percent CI indicates that among all possible samples we
could have selected of the same size and design, 95 percent of the time the population
parameter would have been included in the computed intervals. To take into account
the complexity of our multistage sample design, we used the Taylor expansion method
to obtain the sampling errors for the estimates. We used Horvitz-Thompson sampling
weights, which are the reciprocal of sampling probabilities, to account for our unequal
probability sampling. All data analyses were performed using SAS statistical software
(SAS Institute, Inc., Cary, NC), version 9.3 (TS1M0).

Inspectors conducted the reviews in accordance with Quality Standards for Inspection
and Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.


VA OIG Office of Healthcare Inspections                                                               2
          Evaluation of Nurse Staffing in Veterans Health Administration Facilities April–September 2013



                                 Inspection Results 

Issue 1:       Compliance with Requirements
We reviewed facility documents for compliance with requirements. Facilities generally
complied with the following:

      Facility and unit-based expert panels generally had the required membership.
      Panel members were assigned to work on the unit of the expert panel on which
       they served.
      Expert panels performed reassessments at least annually.
      Units conducted comparative analyses and had a process to monitor the target
       NHPPD.

However, we found non-compliance in the following areas:

      Four of 25 facilities had not initiated facility expert panels.
      Eight of 62 units (13 percent) had not initiated unit-based expert panels.
      Facility panel members did not complete the required training at 9 of 21 facilities.
      For 16 of 54 units (30 percent), expert panel members did not complete the
       required training.

These results are similar to those in our previous report. VHA submitted a detailed
action plan that was still in progress at the time of this report. Therefore, we will not
make a repeat recommendation but will continue to review.

Issue 2:       Comparison of Actual Staffing with Target Staffing
Fifty-two units at 20 facilities had developed NHPPD targets for use October 1, 2012,
through March 30, 2013. Eighteen facilities had acute care units, 17 facilities had
long-term care units, and 17 facilities had mental health units. Table 1 below provides
the estimated percentages of facilities for which the actual average staffing levels were
above, at, or below their specific targeted NHPPD for all days (weekdays, weekends,
and holidays).

                                                            Estimated Results
                                          Sampled           Percent 95% Confidence Limits
                                          Facilities        (%)      Lower      Upper
                                          (total 20)
 All units above NHPPD target             2                 9.1          2.27              30.33
 All units above or not different (at
 least one not different) from target     15                74.6         57.91             86.18
 At least one unit below target           3                 16.3         10.29             24.88
 All units below target                   0
                                               Table 1




VA OIG Office of Healthcare Inspections                                                               3
          Evaluation of Nurse Staffing in Veterans Health Administration Facilities April–September 2013


We estimated that for 74.6 percent (95 percent CI 57.91–86.18) of the facilities that had
developed NHPPD targets, their actual unit staffing was statistically above or not
different from their targets for all units. If the facility had more than one unit, this
category included the possibility that one (or more) could be above target. At least one
must have been not different from the target. Most of these facilities had followed the
methodology to set targets and staffed to meet those targets.

We estimated that 16.3 percent (95 percent CI 10.29–24.88) of the facilities staffed at
least 1 of the sampled units statistically significantly below their targets. One facility’s
acute care unit and two facilities’ long-term care units had actual staffing below their
targets, but none of the facilities’ mental health units had actual staffing below their
targets. We estimated that 9.1 percent (95 percent CI 2.27–30.33) of facilities staffed all
the reviewed units statistically significantly above their NHPPD targets. There were no
identifiable trends in the types of units or days with staffing above the targets.

Facilities with actual staffing that is statistically significantly above or below the target
need to reassess both the targets and the actual staffing needed. Because we changed
our review parameters and analysis methodology, the results cannot be compared with
the results from the previous report. VHA submitted a detailed action plan that was still
in progress at the time of this report. Therefore, we will not make a repeat
recommendation but will continue to review.

                                          Conclusions 

VHA required that all facilities implement the nurse staffing methodology by
September 30, 2011. During the review period of April 1 through September 30, 2013,
8 of the 28 facilities reviewed had not fully implemented the methodology. This result is
similar to our previous report and indicates continued need for improvement.

A comparison of the actual staffing with the target NHPPD for all days indicated that
three facilities’ actual staffing for at least one (but not all) of the reviewed units was
significantly below the target, and two facilities’ actual staffing for all reviewed units was
significantly above the target. Both of these results should drive reassessment and
possible adjustment. Potential overstaffing could indicate that resources could be better
used elsewhere. Potential understaffing could indicate that either actual staffing or
workload needs to be adjusted to provide safe care.

We re-emphasize the need for all facilities to fully implement the methodology and to
accurately address patient needs with safe and adequate staffing. VHA submitted a
detailed action plan to our previous report that was still in progress at the time of this
report. Therefore, we will not make repeat recommendations but will continue to review.




VA OIG Office of Healthcare Inspections                                                               4
          Evaluation of Nurse Staffing in Veterans Health Administration Facilities April–September 2013
                                                                                             Appendix A
               Under Secretary for Health Comments


               Department of
               Veterans Affairs 	                                  Memorandum

           Date:       April 22, 2014

          From:        Under Secretary for Health (10)

       Subject:	       OIG Draft Combined Assessment Program (CAP)
                       Summary Report – Evaluation of Nurse Staffing
                       in   Veterans  Health Administration  Facilities
                       April 1–September 30, 2013 (2014-01072-HI-0408)
                       (VAIQ 7466177)

             To:       Assistant Inspector General for Healthcare Inspections (54)

       1. Thank you for the opportunity to review the draft CAP Summary
       Report, Evaluation of Nurse Staffing in Veterans Health Administration
       Facilities April 1–September 30, 2013. I have reviewed the draft report
       and agree with it as written.

       2. The attachment is for general comments made in response to the draft
       report, including the interpretation of nursing hours per patient day and
       staffing methodology training requirements.

       3. If you have any questions, please contact Karen M. Rasmussen, M.D.,
       Director, Management Review Service (10AR), at (202) 461-6643 or email
       VHA10ARMRS2@va.gov.




       Attachment




VA OIG Office of Healthcare Inspections                                                               5
          Evaluation of Nurse Staffing in Veterans Health Administration Facilities April–September 2013


                      VETERANS HEALTH ADMINISTRATION (VHA) 

                                General Comments

 OIG Draft Combined Assessment Program Report – Evaluation of Nurse Staffing
                 in VHA Facilities April 1–September 30, 2013
Date of Draft Report: March 25, 2014
Overall, the VHA’s Office of Nursing Services (ONS) would like to emphasize that the
interpretation of variance between actual “nursing hours per patient day” (NHPPD) and
target NHPPD is very complex. Based on the complexity of NHPPD interpretation, VHA
respectfully requests the terms “understaffing” and “overstaffing” be used judiciously
throughout the report.

Many factors influence adequacy of staffing and therefore, a thorough and multi-variant
assessment should be done to determine whether understaffing or overstaffing actually
exists and if nursing leadership can take action. For example, a higher NHPPD may be
appropriate if the complexity of the patient population increases for a period of time.
Construction in a patient care area may also require a temporary shift in NHPPD.

Union contracts, Human Resources policies, competency requirements, and clinical
expertise in specialty areas of nursing practice all influence the ability to move nursing
staff from one area to another to achieve target NHPPD. Therefore, if patient census
drops on a unit creating a situation where the NHPPD is greater than target, nursing
leadership may appropriately decide not to re-deploy the staff to areas that are below
target. An example may be: an acute Mental Health (MH) unit is over target and the
Intensive Care Unit (ICU) needs an extra nurse, re-deploying is most likely not
appropriate unless the MH nurse has a background in ICU nursing and is competent in
that area of practice. Finally, on days when the census or acuity is lower, the manager
may use this opportunity to assign staff to complete required training, assist in reviewing
quality data, or other professional nursing activities.

Similarly, units may have an actual NHPPD less than target but this variance is not
necessarily indicative of short staffing. They may have a period where a significant
number of patients are lower in complexity than what is normally experienced. For
example, an ICU may have a large number of less acute patients due to
medicine/surgery bed availability issues. Therefore, an adequate staffing ratio may be
less than target and is a positive indication that nursing leadership is routinely matching
resources with care needs.

In summary, a variance of actual NHPPD to target should be monitored and evaluated
in light of all operational and care variables present at each point in time. VHA agrees
that adjustments to staffing should be subsequently made if deemed appropriate, but
caution that overstaffing or understaffing can be accurately determined only through a
thorough analysis of these variables.

ONS also agrees with the observation that Staff Methodology training requirements
were not often met. However, VHA had just finalized the criteria for meeting the training
requirement in the early part of summer 2013. This OIG report gives VHA good data on
implementation of the criteria.

VA OIG Office of Healthcare Inspections                                                               6
          Evaluation of Nurse Staffing in Veterans Health Administration Facilities April–September 2013
                                                                                             Appendix B

                OIG Contact and Staff Acknowledgments
Contact                For more information about this report, please contact the
                       OIG at (202) 461-4720
Primary                Julie Watrous, RN, MS, Project Coordinator
Contributors           Daisy Arugay, MT
                       Margie Chapin, RT(R), JD
                       Lin Clegg, PhD
                       Myra Conway, RN
                       Sheyla Desir, RN, MSN
                       Kathy Gudgell, RN, JD
                       Wachita Haywood, RN
                       Stephanie Hensel, RN, JD
                       Terri Julian, PhD
                       Elaine Kahigian, RN, JD
                       Sandra Khan, RN, BSN
                       Cathleen King, MHA, CRRN
                       Sarah Lutter, RN, JD
                       David Morley, MS
                       Cindy Niemack-Brown, CMSW, LMHP
                       Patrick Smith, M. Stat
                       Virginia Solana, RN, MA
                       Carol Torczon, MSN, ACNP
                       Sonia Whig, MS, LDN
                       Jarvis Yu, MS
Other                  Elizabeth Bullock
Contributor




VA OIG Office of Healthcare Inspections                                                               7
          Evaluation of Nurse Staffing in Veterans Health Administration Facilities April–September 2013
                                                                                             Appendix C


                                 Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
National Center for Patient Safety
Office of the General Counsel
Office of the Medical Inspector
Veterans Integrated Service Network Directors (1–23)
Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                               8
